No.
IN THE
SUPREME COURT OF THE UNITED STATES
KIM LIPPARD AND BARRY LIPPARD,
v.

Petitioners,

LARRY HOLLEMAN AND ALAN HIX,
Respondents.
CERTIFICATE OF SERVICE
I, Julian H. Wright, Jr., a member of the bar of this Court, hereby certify that
on this 22nd day of February, 2021, all parties required by the Rules of this Court to
be served have been served. The Petition for a Writ of Certiorari was served by email,
with consent, on the following:
SETH JAMES KRAUS
GIBBS & ASSOCIATES LAW FIRM, LLC
6398 Thornberry Court
Mason, OH 45040
(513) 234-5545
skraus@gibbs-lawfirm.com
E. BEDFORD CANNON
140 East Water Street
Statesville, NC 28677
(704) 872-0108
bedfordcannon@gmail.com
Counsel for Respondents
/s/ Julian H. Wright, Jr.
Julian H. Wright, Jr.
February 22, 2021

